<html>
<title> - SEQUESTERING JUSTICE: HOW THE BUDGET CRISIS IS UNDERMINING OUR COURTS</title>
<body><pre>[Senate Hearing 113-109]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-109
 
              SEQUESTERING JUSTICE: HOW THE BUDGET 
                CRISIS IS UNDERMINING OUR COURTS
=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON BANKRUPTCY

                             AND THE COURTS

                                 of the

                       COMMITTEE ON THE JUDICIARY

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2013

                               __________

                          Serial No. J-113-21

                               __________

         Printed for the Use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
85-452                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY


                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
                 David Young, Republican Chief of Staff
                                 ------                                

               Subcommittee on Bankruptcy and the Courts

                CHRISTOPHER A. COONS, Delaware, Chairman
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama, Ranking 
SHELDON WHITEHOUSE, Rhode Island         Member
AMY KLOBUCHAR, Minnesota             CHUCK GRASSLEY, Iowa
AL FRANKEN, Minnesota                JEFF FLAKE, Arizona
                                     TED CRUZ, Texas
         Ted Schroeder, Democratic Chief Counsel/Staff Director
                Rick Dearborn, Republican Chief of Staff


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher, a U.S. Senator from the State of 
  Delaware.......................................................     1
    prepared statement...........................................
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    70

                               WITNESSES

Witness List.....................................................    31
Gibbons, Hon. Julia S., Chair, Committee on the Budget of the 
  Judicial Conference of the United States, Memphis, Tennessee...     5
    prepared statement...........................................    32
Allen, W. West, Chair, Government Relations Committee, Federal 
  Bar Association, Las Vegas, Nevada.............................     7
    prepared statement...........................................    42
Nachmanoff, Michael S., Federal Public Defender, Eastern District 
  of Virginia, Alexandria, Virginia..............................    10
    prepared statement...........................................    52

                         QUESTIONS AND ANSWERS

Questions from Hon. Al Franken for W. West Allen, Hon. Julia S. 
  Gibbons, and Michael S. Nachmanoff.............................    72
Questions from Hon. Jeff Sessions for Hon. Julia S. Gibbons and 
  Michael Nachmanoff.............................................    75
Responses of W. West Allen to Questions Submitted by Senator Al 
  Franken........................................................    77
Responses of Hon. Julia S. Gibbons to Questions Submitted by 
  Senator Jeff Sessions..........................................    79
Responses of Hon. Julia S. Gibbons to Questions Submitted by 
  Senator Al Franken.............................................    87
Responses of Michael S. Nachmanoff to Questions Submitted by 
  Senator Al Franken.............................................    92
Responses of Michael S. Nachmanoff to Questions Submitted by 
  Senator Jeff Sessions..........................................    96

                       SUBMISSIONS FOR THE RECORD

ACLU et al. Letter to Senators Coons and Sessions................    99
Blogging U.S. Judge Sounds Off on Budget Cuts, Peter Hardin, May 
  21, 2013.......................................................   101
Budget Cuts Start to Hurt Courts, The Blog of LegalTimes, March 
  29, 2013.......................................................   102
Budget Ax Falls and Ball Is in His Court, Erin Grace, World-
  Herald Columnist...............................................   104
Chief Justice Roberts: Sequester Cuts Hitting Federal Judiciary 
  `Hard'.........................................................   107
Memorandum on Cost Savings Initiatives, United States Bankruptcy 
  Court, Eastern District of North Carolina......................   109
Courthouse Safety Harmed by Sequestration, Bar Group Says, 
  Bloomberg, June 28, 2013.......................................   114
District Court of Nebraska, Letter from Laurie Smith Camp, Chief 
  U.S. District Judge, to Hon. Robert S. Lasnik and Hon. Rodney 
  W. Sippel......................................................   115
Letter from Richard Coughlin, Federal Public Defender, District 
  of New Jersey, to Hon. Jerome B. Simandle, Chief U.S. District 
  Judge..........................................................   117
January-February 2013: Federal Courts Brace for Budget Cuts, 
  Federal Bar Association, January/February 2012.................   122
Federal Defender Fact Sheet, July 16, 2013.......................   124
Federal Court in Delaware Affected by Sequester, WDEL Newstalk 
  Radio, March 14, 2013..........................................   134
Federal Public Defender Edson A. Bostic Letter to Hon. Gregory M. 
  Sleet..........................................................   135
Federal Public Defender Reuben Camper Cahn Letter to Hon. Barry 
  Ted Moskowitz..................................................   141
Federal Public Defender Thomas W. Hillier, II Letter to Hon. 
  Marsha J. Pechman..............................................   144
Federal Public Defender Steven G. Kalar Letter to Hon. Claudia 
  Wilken.........................................................   147
Federal Public Defender Sean K. Kennedy Letter to Hon. George H. 
  King...........................................................   155
Federal Public Defender Michael S. Nachmanoff Letter to Hon. Eric 
  H. Holder, Jr..................................................   158
Budget Cuts Cause Delays, Limit Access to Justice, Gavel Grab, 
  April 29, 2013.................................................   160
Impact of Sequestration Felt in Public Defender's Office, Gavel 
  Grab, July 11, 2013............................................   161
How the Sequester Is Holding Up Our Legal System, The Atlantic, 
  July 25, 2013..................................................   163
Letter from Bert Brandenberg, Executive Director, Justice at 
  Stake, to Hon. Harry Reid, Hon. Mitch McConnell, Hon. John 
  Boehner, and Hon. Nancy Pelosi, March 19, 2013.................   168
Letter from Bert Brandenberg, Executive Director, Justice at 
  Stake, to Hon. Harry Reid, Hon. Mitch McConnell, Hon. John 
  Boehner, and Hon. Nancy Pelosi, November 8, 2012...............   170
Letter from Bert Brandenberg, Executive Director, Justice at 
  Stake, to Hon. Patrick Leahy, Hon. Chuck Grassley, Hon. Lamar 
  Smith, and Hon. John Conyers, Jr...............................   172
Letter to Hon. Sylvia Mathews Burwell, Director, Office of 
  Management and Budget, from Hon. Julia S. Gibbons..............   174
Letter to Hon. Christopher Coons from Liz Seaton, Acting 
  Executive Director, Justice at Stake, July 23, 2013............   181
Justice Group Supports Judiciary's Request for $73M in Emergency 
  Funds, Legal Newsline, May 29, 2013............................   183
Justice Sequestered, The Editorial Board, The New York Times, 
  July 20, 2012..................................................   185
Letter to Judge William B. Traxler, Jr., from Hon. James, K. 
  Bredar, Hon. Kathleen M. Williams, Hon. Jeffrey Viken, Hon. 
  Paul D. Borman, and Hon. Raymond P. Moore......................   187
Letter to the President from the Federal Bar Council Regarding 
  the Sequester and Press Release, June 27, 2013.................   190
Middle District of Pennsylvania Letter from Public Defender James 
  V. Wade to Hon. Yvette Kane, Chief Judge, U.S. District Court..   198
Letter from Robert Gay Guthrie, President, National Association 
  of Assistant United States Attorneys, to Hon. Chris Coons and 
  Hon. Jeff Sessions, July 22, 2013..............................   203
New York State Bar Association Letter to Hon. Chris Coons, July 
  23, 2013.......................................................   205
Senate Hearing Statement from Former Federal Judges and 
  Prosecutors, July 23, 2013.....................................   206
FY 2013 Sequestration Impacts on the Federal Judiciary; Effects 
  on Bankruptcy Court, Eastern District of North Carolina, June 
  11, 2013.......................................................   212
Sequestration of Justice, The New York Times Editorial Board, 
  April 11, 2013.................................................   217
Statement of U.S. Bankruptcy Court, District of Delaware, Judge 
  Kevin Gross, July 23, 2013.....................................   218
Letter from Federal Public Defender Lisa B. Freeland to Hon. 
  Theodore A. McKee, July 18, 2013...............................   220
Letter from Federal Public Defender Katherian D. Roe to Hon. Al 
  Franken, July 19, 2013.........................................   225
Letter from Hon. Michael J. Davis, Chief Judge, U.S. District 
  Court, to Hon, William B. Traxler, Chief Judge, U.S. Court of 
  Appeals for the Fourth Circuit.................................   227
Letter to Hon. Thomas F. Hogan from Eric H. Holder, Jr., U.S. 
  Attorney General...............................................   230


 SEQUESTERING JUSTICE: HOW THE BUDGET CRISIS IS UNDERMINING OUR COURTS

                              ----------                              -
---


                         TUESDAY, JULY 23, 2013

                                       U.S. Senate,
         Subcommittee on Bankruptcy and the Courts,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:09 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Christopher 
Coons, Chairman of the Subcommittee, presiding.
    Present: Senators Coons, Durbin, Whitehouse, Klobuchar, and 
Sessions.

  OPENING STATEMENT OF HON. CHRISTOPHER COONS, A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Chairman Coons. I call this hearing to order. Welcome to 
this hearing of the Judiciary Committee's Subcommittee on 
Bankruptcy and the Courts. I am pleased today to be joined by 
my Ranking Member, Senator Jeff Sessions. Senator Sessions has 
either been the Chairman or Ranking Member of this Subcommittee 
since 2001 with the brief exception of two years in the 111th 
Congress, during which time he served as Ranking Member of the 
Full Committee. His experience in overseeing the judiciary to 
ensure its efficient operation is unequaled, and I look forward 
to working with him as we continue that work together in this 
Congress.
    Broadly speaking, America's judiciary stands as a shining 
example of the genius of our founders. Vested with ``the 
judicial power of the United States,'' our Federal courts act 
as a check upon executive or legislative overreach and as a 
neutral arbiter between parties in disputes. The limitations on 
Government set by our Constitution as well as the liberty 
interests reserved to the States and the people ultimately rely 
on our judiciary to enforce them.
    When an individual is wronged or a business dispute arises, 
they can turn to our courts, get a fair hearing and a just 
resolution, and move forward with their lives. When the Federal 
Government seeks to deprive any American of life or liberty, it 
is the courts, and often the Federal public defenders they 
employ, that make sure the Government is forced to meet its 
burden of establishing guilt beyond a reasonable doubt.
    When the sequester was conceived, the across-the-board 
Federal budget cut that it causes was thought to be so 
dangerous, so reckless, that it would force the Congress to 
responsibly confront our Nation's spiraling deficits. Congress 
has not, however, acted, and the result has been an erosion of 
the ability of our Government to do the people's business. I 
fear that continued, sustained, and indiscriminate cuts to 
discretionary Federal spending could push us to a point of 
crisis.
    The judiciary has looked at a variety of measures to 
address this new budgetary reality, and very few of them come 
without significant pain to the individuals, the litigants, the 
businesses, and others who rely on them. One proposal, to 
simply not schedule civil jury trials in the month of 
September, would effectively impose a 30-day uncertainty tax on 
every civil litigant before the Federal courts.
    A judge in Nebraska has recently threatened to dismiss all 
so-called low-priority immigration status crimes because of a 
lack of capacity.
    In New York, deep furlough cuts to the public defender's 
office caused a delay of the criminal trial for Osama bin 
Laden's son-in-law and former al Qaeda spokesman, Suleiman Abu 
Ghaith.
    In Delaware, my home State, the sequester has meant lengthy 
employee furloughs at the clerk's office of our bankruptcy 
court, resulting in reduced customer service hours and the 
postponement of infrastructure, of IT upgrades that would aid 
the efficient resolution of those important cases. The cuts 
have not been deeper only because that office is already 
working with 40 percent fewer staff, despite an increasing 
caseload, including many of the time-intensive mega cases 
important to our country's recovery.
    The Delaware Federal Public Defender's Office has had to 
furlough its defenders 15 days this year so far, essentially 
canceling the criminal docket every Friday for the rest of this 
year. Every day the public defenders are furloughed is another 
day defendants spend in pretrial incarceration at a cost to 
taxpayers of more than $100 a day. The defender's office has 
also had to sharply curtail expenditures for needed 
investigators and experts, which may be leading to a decrease 
in the quality of representation, leading to longer prison 
terms and more avoidable taxpayer expense.
    And if we do not act, frankly, the picture looking forward 
is still bleaker. Next year, the Federal Public Defender's 
offices nationwide are scheduled to take a 23-percent budget 
cut. In Delaware, this means a third of the office would be 
laid off, but even that will not be enough, so the remaining 
employees would face between 26 and 60 furlough days, and 
funding for experts and investigation services would not be 
restored.
    Fifty years ago this year, the U.S. Supreme Court gave 
substance to the Sixth Amendment's right to counsel in criminal 
cases when in Gideon v. Wainwright it ruled the Government 
could not threaten indigent individuals with prison terms 
unless it also provided them with an attorney. The Federal 
defenders' services are the embodiment of that vital legacy.
    The sequester is slowing the pace, increasing the cost, and 
potentially eroding the quality of the delivery of justice in 
our country. Congress' disappointing inability so far to 
responsibly replace the sequester and save the courts from 
these Draconian cuts is eroding our constitutional rights.
    Individuals depend on the courts to be there when they need 
them, to seek relief from discrimination, to resolve 
complicated commercial disputes, and enable parties to stop 
fighting and get to work growing our economy. The irony is that 
cuts to the judicial branch that undermine its ability to do 
its job do not actually save taxpayers any money. The cases 
will still be adjudicated, just at a slower pace and higher 
cost. The Constitution, as we all know, still guarantees the 
right to effective assistance of counsel, so courts will 
inevitably have to appoint a greater number of panel attorneys 
who, studies suggest, do the job for 10 to 30 cents more on the 
dollar.
    Yes, our Nation does find itself in fiscal crisis, and 
every branch of Government must do its part. No one disputes 
that. The judiciary need not be exempted and is already 
working, as we will hear, to reduce expenses by selling or 
renting excess office space and canceling unnecessary training 
or conferences.
    Any expenses beyond core mission take a second priority and 
need to be looked at closely all across our Government. That 
said, we are not going to be able to solve or even noticeably 
mitigate the national fiscal crisis on the backs of the courts 
since they spend just 19 cents of every Federal $100 spent. 
Nineteen cents for one whole branch of our Government strikes 
me as a pretty good deal, particularly for a branch that does 
its job so well. In my view, the indiscriminate cuts of the 
sequester are truly penny wise and pound foolish.
    Dr. King once famously said, ``Justice too long delayed is 
justice denied.'' I worry that by delaying the delivery of 
justice, the sequester may be denying it to too many Americans.
    I look forward to the testimony of our panel today, and I 
hope you will shed greater light on what the judiciary has 
done, what it would be forced to do if Congress continues to 
neglect its duty to responsibly replace the sequester.
    With that, I would like to invite an opening comment from 
my Ranking Member, Senator Sessions. Senator Sessions.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. Thank you. I appreciate the opportunity 
to talk about the financial problems that the court is facing 
as a result of the cuts under the Budget Control Act. If you 
will recall, we are on an unsustainable debt course, as 
everyone agrees. In August 2011, a controversy arose over 
raising the debt ceiling. We had already hit the debt ceiling. 
And so the agreement was finally reached and passed into law. 
Both Houses supported it. The President supported it. He 
suggested, the President did, or his aides, the sequester 
mechanism. And that passed.
    So after it passed, instead of spending going up from the 
current $37 trillion over 10 years, which would be current law, 
it was projected to go up to $47 trillion over 10 years. And as 
the reductions went into place, we would increase spending from 
$37 to $45 trillion. And, of course, the problem we are facing 
is that cuts were directed at too many areas, perhaps more 
heavily than should be, and whole areas were protected from any 
cuts at all. So cuts were not balanced. We need a balanced 
approach, colleagues, is what we need--a balanced approach in 
reduction of spending and tightening of our belt. So the courts 
are one of the areas that took a substantial reduction in 
spending.
    Well, I do not quite understand how we are having 25-, 30-
percent cuts. It is not that much being cut. So somebody 
somewhere in the agencies and departments or maybe Congress is 
directing that certain agencies take more reductions than the 
Administrative Office of the Courts has taken as a whole, 
number one.
    Number two, I think perhaps things are not as bad as feared 
because it looks to me like the House marked up to the 
President's request on the AOC, which should avoid some of the 
problems, and maybe that will help. And I understand you are 
asking for about $70 million more to finish this year, Judge 
Gibbons, which is not an unreasonable request--I will say it 
that way--although if we start making exceptions, we have got a 
lot of other agencies and departments that would like to have a 
supplemental too.
    So I would just say to you, with regard to the Budget 
Control Act and the sequester, Congress voted--and the American 
people seemed quite comfortable with the idea--that we can 
reduce spending for a little while around here instead of 
having steady growth. And they are not panicked, and I know we 
have stories that there is not enough copy paper in a clerk's 
office somewhere. Well, I would say the clerk--you need a new 
clerk. It is like those school people that require the students 
to bring in toilet paper because they cannot find enough money 
to do that or fix their roof. Now, that is mismanagement to me.
    So you have been asked, though, in your defense, to take 
reductions more rapidly than smart people would ask you to take 
it. It is sort of an aberrational thing as part of this cut. 
And I think it has fallen pretty hard, and I am hearing some 
stories that I am willing to look at.
    So I guess just to come back to the fundamentals, from what 
I am hearing, the courts in many areas are being smart. They 
are working hard. They are finding ways to save money without 
impacting the quality of justice in America. And for that you 
should be saluted. If you cannot maintain spending--if you 
cannot maintain justice at that level, we hope you will keep us 
informed, and so maybe Congress, we can do something about it. 
But I think the title of this--what is it?--``Sequestering 
Justice,'' is a bit over the top from my perspective. I think 
most courts are delivering justice today just as well as they 
were before these cuts took place. I do not have any doubt of 
it.
    When I became United States Attorney in 1981, the first two 
or three years under President Reagan we could not hire 
anybody. There was a total hiring freeze, and other 
expenditures were cut. And I do not think the Government sank 
into the ocean. It was still functioning.
    Finally, I truly believe with the Chairman that the 
strength of the American experience is our rule of law, the 
confidence that Americans have that justice is done, 
particularly in Federal courts, and that people expect that, 
and we want to be sure that that is maintained. It requires a 
certain amount of financial support, and I think that you have 
every right to come to Congress and express concerns if you 
think the level of support is so low that you are not able to 
maintain the minimum--you know, the standards of justice that 
we believe are necessary.
    So, Mr. Chairman, thank you. I think it is good to have 
this discussion. I am hearing from some of my friends in 
Alabama that they think cuts of public defenders and all are 
more than they should be, and so I am anxious to hear some of 
the details.
    Chairman Coons. Thank you, Senator Sessions.
    Before we delve into witness testimony, please rise, if you 
would, while I administer the oath, which is the custom of this 
Committee. Please raise your right hand and repeat after me: Do 
you solemnly swear that the testimony you are about to give to 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Judge Gibbons. I do.
    Mr. Allen. I do.
    Mr. Nachmanoff. I do.
    Chairman Coons. Thank you, and let the record show the 
witnesses have answered in the affirmative.
    Our first witness today is Judge Julia Gibbons. Judge 
Gibbons is a judge for the Sixth Circuit Court of Appeals. She 
was confirmed to that seat unanimously in 2002 after serving 19 
years as a district court judge for the Western District of 
Tennessee. She is also Chair of the Judicial Conference of the 
United States Committee on the Budget and so is well and deeply 
versed in the funding issues faced by the courts and can 
answer, I believe, many of the implicit questions raised in the 
opening statements from both myself and Senator Sessions.
    Judge Gibbons, please proceed.

 STATEMENT OF THE HONORABLE JULIA S. GIBBONS, CHAIR, COMMITTEE 
ON THE BUDGET OF THE JUDICIAL CONFERENCE OF THE UNITED STATES, 
                       MEMPHIS, TENNESSEE

    Judge Gibbons. Thank you. Chairman Coons, Senator Sessions, 
Members of the Subcommittee, I appear before you as Chair of 
the Judicial Conference Committee on the Budget. The judiciary 
very much appreciates the invitation to discuss the financial 
crisis facing the courts.
    Senator Coons, I am pleased that judges from your home 
circuit are here today: Chief Judge Ted McKee, Judge Tom Ambro 
from your home State. The Third Circuit has felt as much pain 
as the rest of the judiciary, but it's within-the-circuit 
coordination, and efforts to address the current crisis have 
been stellar.
    I also would like to recognize Judge John Bates right here 
behind me, the new Director of the Administrative Office of the 
U.S. Courts, who comes to the AO after serving on the D.C. 
Federal District Court.
    The $350 million, 5-percent across-the-board sequestration 
cuts have been devastating to Federal court operations. To 
address sequestration, the Executive Committee of the Judicial 
Conference implemented a number of emergency measures for FY 
2013. Many of these have been painful and difficult to 
implement and reflect one-time reductions that cannot be 
repeated if future funding levels remain flat or decline. We 
estimate clerks of court and probation and pretrial services 
offices will downsize by as many as 1,000 staff during 2013 and 
implement 8,600 furlough days. Courts have already reduced 
staff by nearly 2,100 employees between July 2011 and the 
present, a 10-percent staffing loss over this two-year period 
and additional losses by year end are expected. The staffing 
losses, we believe, are resulting in the slower processing of 
civil and bankruptcy cases which will impact individuals, small 
businesses, and corporations seeking to resolve disputes in the 
Federal courts.
    While it is useful to measure the impact of cuts in terms 
of employee or program loss, ultimately the primary consequence 
of sequestration is not internal to the courts. Instead, it is 
the harm to commerce, orderly and prompt resolution of 
disputes, public safety, and constitutional rights ranging from 
effective representation by counsel for criminal defendants to 
jury trial. Indeed, if funding levels remain flat or decline, 
the result compromises the constitutional mission of the 
courts.
    I want to discuss in a little more detail two areas--public 
safety and effective representation by counsel.
    The judiciary's nearly 6,000 probation and pretrial 
services officers play an important role in ensuring public 
safety. They supervise convicted individuals in the community 
after they have been released from prison and supervise 
defendants awaiting trial. Staffing in these offices is down 7 
percent since July 2011, meaning less deterrence, detection, 
and response to possible criminal activity by Federal 
defendants and offenders in the community.
    Particularly troubling are cuts that have been made to drug 
and mental health testing and treatment services and to 
electronic and GPS monitoring. These cuts impair our officers' 
ability to keep the public safe.
    Turning to the Defender Services Program, sequestration 
threatens the judiciary's ability to fulfill a fundamental 
right guaranteed by the Sixth Amendment: the right to court-
appointed counsel for criminal defendants who lack the 
financial resources to hire an attorney. There are no easy 
answers when it comes to applying cuts to this program. Cuts to 
the Federal defenders threaten delays in the progress of cases, 
which may violate constitutional and statutory speedy trial 
mandates, and may cause increased panel representations, which 
drive up costs.
    Deferring panel attorney payments pushes obligations that 
must be paid to appropriations for the following year, a 
situation not attractive to us or our appropriators. It also 
may make obtaining attorneys to take appointments difficult.
    We have been asked why we cannot transfer funds from other 
judiciary accounts to help the Federal defenders. While we have 
the authority to transfer funds, we do not have the funding to 
do so. We have no available surplus funding.
    There has been mention of our supplemental appropriations 
request. We do ask for $73 million to address critical needs in 
the courts and the Defender Program. We hope Congress will give 
strong consideration to this request.
    As far as 2014 funding is concerned, Chairman Coons, we 
received very positive news this morning about the Senate 
Subcommittee's markup of the bill in which we are funded. You 
are a Member of that Subcommittee, we know, and we appreciate 
the Subcommittee's making judiciary funding a priority.
    Still, given the sharp disagreements between the White 
House and the Senate and the House on spending matters, we are 
very concerned about future funding. If the funding disputes 
cannot be resolved and Congress instead chooses to pursue a 
continuing resolution, we would appreciate this Subcommittee's 
support of a funding anomaly or exception that would fund us 
above a hard freeze in 2014. Flat funding at sequestration 
levels would exacerbate the current situation and irreparably 
damage the system that is a hallmark of our liberty around the 
world.
    We continue to be good stewards of the taxpayers' dollars 
and seek ways to reduce costs, as we have done aggressively for 
the last decade. But no amount of cost containment will offset 
the major reductions from sequestration. We look to Congress to 
recognize the Judiciary's critical function in our Government, 
and its value to the democracy by providing the funding we need 
to do our work.
    Thank you, and I am happy to answer questions.
    [The prepared statement of Judge Gibbons appears as a 
submission for the record.]
    Chairman Coons. Thank you, Judge Gibbons.
    Before I turn to our next witness, I would like to both 
join you in welcoming the members of the judiciary, in 
particular from the Third Circuit, who have joined us and ask 
consent to enter into a record a letter from the Budget 
Committee of the Third Circuit Court of Appeals and from the 
National Association of Assistant United States Attorneys on 
the damage to the courts and the administration of justice 
caused by the sequester.
    [The letters appear as submissions for the record.]
    Chairman Coons. Our next witness is W. West Allen. Mr. 
Allen served as chair of the Government Relations Committee for 
the Federal Bar Association. Mr. Allen is a partner in the Las 
Vegas office of Lewis and Roca and is an IP lawyer who has 
practiced extensively before U.S. Federal courts and the U.S. 
PTO. Mr. Allen is a graduate of the John Marshall Law School in 
Chicago, where he served as executive managing editor for the 
Journal of Computer and Informational Law.
    Mr. Allen, welcome. Please proceed.

    STATEMENT OF W. WEST ALLEN, CHAIR, GOVERNMENT RELATIONS 
     COMMITTEE, FEDERAL BAR ASSOCIATION, LAS VEGAS, NEVADA

    Mr. Allen. Thank you. Mr. Chairman, Ranking Member 
Sessions, it is an opportunity and privilege to be with you 
today and give you some testimony.
    My assignment here today is really on behalf of not just 
the 16,000 lawyers who are directly interested in the Federal 
court system, but really the people and the businesses we 
represent. My comments, therefore, will be directed as to the 
people and their right for a strong and independent American 
judiciary that upholds the rule of law. I know we all share 
that interest.
    It truly is we, the people, both individuals and our 
businesses, who seek and expect justice in America's Federal 
courts. It is the ability of our courts to provide fair, 
prompt, and respected justice. That is one of the hallmarks, 
the great hallmarks of our Nation. Our Founding Fathers wisely 
recognized the compelling need for a strong Federal judiciary, 
established as a separate, co-equal branch of Government, 
sufficiently independent to assure the rule of law. But 
independence and promptness of decision making are imperiled 
when the Federal judiciary lacks the resources to properly 
discharge its constitutional responsibilities. Indeed, the long 
tradition of excellence in the American judiciary is in 
jeopardy. As an attorney who practices there regularly, I 
wanted to focus on three points.
    The first is that there are true economic and cost 
implications related to sequestration of the Federal courts 
that affect our American commerce, American businesses, and 
individuals.
    Second, there are the freedom-related implications of our 
rights under the Constitution to a safe society, to general 
welfare, to the Constitution's Sixth Amendment right for the 
accused to be represented.
    And, finally, the crisis really has given rise to a 
question about our national identity and its respect for the 
American judiciary, that the people ordained and established as 
a coordinate branch of Government. They expect and hope that it 
will be properly funded at all times.
    The first point is economic. Quite simply, the 
sequestration's greatest impact has been, for practicing 
attorneys and their clients, delays. Delays in judicial 
proceedings, reduced public access, and fewer operational hours 
due to budget cuts are having their effect. Reduced hours of 
staffing, delays in judicial proceedings are commonplace. 
Indeed, waiting for judicial rulings on relatively simple 
motions for six months, eight months, even up to a year is not 
uncommon. It has to be explained to clients all the time.
    The ever-expanding jurisdiction of courts only exacerbates 
the problem. We note that in 2012 there were 1,427 cases per 
judge in, for example, the Eastern District of California while 
the recommended number of these cases per judge should be 
closer to 400.
    Immigration prosecutions on our border have increased 52.8 
percent over levels just reported five years ago. The Federal 
judges in those districts are simply absorbing the extra 
caseload.
    There are significant delays, as, Chairman Coons, you 
understand, in bankruptcy court. Your court is the busiest in 
the country for Chapter 11 filings. Since 2012, Chapter 11 
filings have increased 38 percent, yet the budget has decreased 
their resources--the budget has cut them 28 percent over the 
past three years. These changes in bankruptcy court are 
affecting the livelihoods of debtor companies, employees, as 
well as property rights of creditors and stakeholders in some 
of our Nation's most important enterprises that depend on the 
bankruptcy court's ability to administer justice in a timely 
fashion.
    Mr. Chairman, the increasing delays and uncertainties of 
our Federal courts are having an economically deleterious 
effect upon U.S. businesses and individuals. It is simply more 
expensive when there are delays.
    The second point is that the Federal courts' sequestration 
effects are having true implications for the people's right 
under the Constitution, both for general welfare, having a 
safe, secure society that is available, that we do not have to 
worry about the criminally accused doing things, whether they 
are in pretrial stages or post-trial stages, that would 
jeopardize American public safety. And likewise related to that 
is the constitutional issue of the Sixth Amendment and our 
tradition of the Sixth Amendment and looking after the 
criminally accused and their right to counsel.
    As to the issues with safety, there is a concern that 
probation and pretrial service officers are unable to properly 
monitor the activities and whereabouts of offenders and 
convicted felons. We are concerned that increasing numbers of 
probation officers are encountering a diminished ability to 
closely supervise offenders and ensure compliance with court 
orders. Likewise, pretrial services offices are becoming 
understaffed, undertrained, and underfunded as a result of 
sequestration.
    The Sixth Amendment issue is well understood. I will leave 
that to Mr. Nachmanoff and others, but the tradition that we 
have in the United States of America is that, regardless of who 
you are, your ability to pay, if you are accused of a crime, 
you have a right to an attorney regardless of your means. And 
that right is in some instances being jeopardized, at least 
with delays and the requirements of the Speedy Trial Act.
    And, finally, my closing point is that the effects of 
Federal courts are having a profound implication on our 
national identity and its long tradition of a strong and 
independent American judiciary. We note that the excellence of 
the American judiciary is truly at risk. Justice Kennedy 
eloquently explained, ``If judicial excellence is cast upon a 
sea of congressional indifference, the rule of law is 
imperiled.''
    We have seen that firsthand. We genuinely as litigators, as 
clients, have seen that when there is inadequate funding, the 
American judiciary does suffer. The complete independence of 
courts of justice is peculiarly essential to our Constitution, 
and it is the express constitutional responsibility of Congress 
to safeguard this independence by adequately funding our 
Federal courts. We certainly would exhort the Judiciary 
Committee and Congress to assure the delivery of sufficient 
funds that will sustain the people's judiciary, the American 
judiciary, and its long tradition of excellence.
    Thank you for your consideration, and I would be happy to 
answer any questions.
    [The prepared statement of Mr. Allen appears as a 
submission for the record.]
    Chairman Coons. Thank you very much, Mr. Allen, for your 
testimony.
    Next I will turn to Mr. Nachmanoff, if I might. Our final 
witness, Michael Nachmanoff, has been a Federal Public Defender 
for the Eastern District of Virginia since 2007 and has been an 
assistant public defender in that office since 2002. Mr. 
Nachmanoff successfully argued the case of Kimbrough v. United 
States, a case dealing with excessive Sentencing Guidelines 
ranges for crack cocaine, an issue that has since been 
addressed legislatively thanks to the leadership of two of my 
colleagues on this Committee, in particular Senator Sessions 
and Senator Durbin. Like Judge Gibbons, Mr. Nachmanoff is a 
graduate of the University of Virginia Law School where he 
served as notes editor on the Law Review.
    Mr. Nachmanoff, please proceed.

 STATEMENT OF MICHAEL S. NACHMANOFF, FEDERAL PUBLIC DEFENDER, 
       EASTERN DISTRICT OF VIRGINIA, ALEXANDRIA, VIRGINIA

    Mr. Nachmanoff. Thank you, Mr. Chairman and Senator 
Sessions. Thank you for holding this hearing and for providing 
me with the opportunity to speak on behalf of the Federal 
Public and Community Defenders. I appreciate very much the 
comments from you, Mr. Chairman, and from Senator Sessions, and 
also the expressions of support and the recognition of the 
particular problem that Federal and Community Defenders have 
and the support from Judge Gibbons and from the Federal Bar 
Association and Mr. Allen. We appreciate the opportunity to be 
here.
    Mr. Chairman, you made reference to the Gideon case, and it 
is an irony that we are discussing the crisis that faces 
Federal Defenders exactly 50 years after the Gideon case was 
decided, a decision that really breathed life into the 
fundamental principle that we all cherish of equal access to 
justice under the law.
    But there is a bigger irony here in some ways--that this 
funding crisis for Federal Defenders comes at a time when the 
Government is so focused on making sure that Government 
services provide cost-efficient and quality services--because 
we are on the verge of being crippled and we are a model of 
quality and efficiency, and that by reducing the staffing of 
Federal Defenders, ultimately the Government will be spending 
more money. Indigent costs will rise.
    ``Why is that?'' Senator Sessions asked about why we are 
being hit so hard, and the answer to that is, first, that we 
are a constitutional mandate. We do not control the cases that 
we get. We do not control what kinds of cases are brought. Of 
course, the Department of Justice decides on its priorities, 
the number of cases, the complexity of those cases, and where 
those cases are brought. We react to that. And our staffing is 
extremely lean. Ninety percent of our costs are fixed: salary, 
benefits, and rent. In the Eastern District of Virginia, my 
rent over the past 10 years that I have been in the office has 
almost doubled during that time.
    The remaining 10 percent of our expenses are case-related 
expenses. They are essential services that we provide: experts, 
investigation, case-related travel. We cannot do 80 percent of 
the work or even 90 percent of the work for our clients and 
meet our constitutional obligations. We cannot choose to do 
less for our clients and spend less money in order to do what 
the Constitution demands. And for that reason, we have had to 
furlough employees, to lay off employees, after cutting out 
every other expense that we could, including new hires, 
including replacement of needed equipment, including training.
    We work with the CJA Panel. The CJA Panel is a critical 
part of the indigent defense system. Between the two groups, 
Federal Defenders and CJA lawyers, we represent 90 percent of 
all criminal defendants in the Federal court. We provide 
support to the panel through training, through outreach. That 
saves money for the Government. They are able to do their jobs 
more efficiently.
    As we have been cut as a result of the sequester, we have 
had to furlough our employees. We have had to eliminate 
training. We have had to cut ourselves to the bone. Many 
defenders have already laid off staff. My colleague from 
Arizona will be at 25 percent less staffing by October 1st.
    But that is not the worst that we face. Federal defenders 
are confronted--if there is flat funding and we are operating 
not on the marks from the House and the Senate (which we are 
very grateful for, both the Senate and the House), but on a 
continuing resolution--we are facing eliminating up to 35 
percent or more of our staffing, and that is because the 
alternative is to be faced with weeks upon weeks of furloughs. 
In the Eastern District of Virginia, I would be faced with, if 
I kept my staff on board, furloughing for 97 days. It is simply 
untenable. It is untenable as a manager to do that to my 
employees. It is impossible for our clients who have 
constitutional rights and speedy trial rights that must be 
observed. And it is inappropriate for the public.
    The Department of Justice was fortunate. They were able to 
reallocate funds and avoid furloughs. That has created an 
imbalance. Senator Sessions, as you referenced, balance is 
critical in the courts. We have faced furloughs and layoffs. 
They (Department of Justice) have been protected this year. In 
the coming year, if we face the loss of a third of our staff 
and the Department of Justice is funded, that imbalance will be 
greater.
    I have been very proud to meet with foreign judges on a 
regular basis over the last several years with my U.S. Attorney 
to discuss the rule of law and the rights that we afford 
defendants in Federal court. We do that for judges who come 
from parts of the world where the rule of law is weak and the 
protections afforded criminal defendants are not strong. And I 
have always been proud to have those discussions and see how 
those judges from other parts of the world have reacted and 
been impressed with the degree of professionalism and our 
fidelity to the Constitution. It will be much harder for me to 
have that conversation with foreign judges this year as I look 
at the prospect of having to lay off critical staff, and we ask 
for your help.
    Thank you.
    [The prepared statement of Mr. Nachmanoff appears as a 
submission for the record.]
    Chairman Coons. Thank you very much, Mr. Nachmanoff.
    We will now proceed with five-minute rounds of questioning, 
and I will begin, if I might, with Judge Gibbons.
    Judge Gibbons, thank you for your testimony today. Just 
tell me at the beginning, if you might, in your 19 years as a 
trial court judge, can you speak about the relative importance 
of Federal Public Defenders in ensuring the quality of justice 
and the quality of the judging in which you were directly 
involved?
    Judge Gibbons. I think there is general agreement 
throughout the judiciary, and particularly from trial judges 
who do see the work of the Federal defenders up close every 
day, that the Federal defender organizations do an excellent 
job of representing criminal defendants in our courts. That is 
not to say we do not have many excellent panel attorneys, but 
obviously the contributions of someone who does the work full-
time, often makes a career of the job, those sorts of 
contributions cannot be underestimated. They do extremely good 
work, and it is valuable work.
    Chairman Coons. Well, Judge, thank you for the work that 
you have done to control costs in other areas that do not 
affect personnel.
    There have been some who have been critical of the 
judiciary's building of courtroom space, and I would be 
interested in hearing what you have done to limit the footprint 
and the cost of court office space, and in particular, whether 
there are any policies or procedures of the GSA that make it 
difficult to achieve further savings through reduction of 
office space.
    Judge Gibbons. I will try to give you the short answer, 
because we have been working on this problem since 2004, to 
mention a couple of our earlier efforts and then move pretty 
quickly to current efforts.
    Early on, we imposed kind of our own version of budget caps 
in each of the areas in our budget, and it was, in a way, a 
statement about what we were going to do to control the growth 
in space costs and other areas. That was an important goal for 
us and one that we were able to meet.
    We also had a major rent validation program where we 
started doing in-house auditing or monitoring of bills that the 
General Services Administration provided us, and we found many, 
many errors and many overcharges.
    With those efforts plus some other efforts like the revised 
asset management planning process and others, we were able to, 
we believe, avoid costs of about $400 million in the rent area. 
The AMP, or asset management planning process, is what is used 
now in identifying our courthouse construction needs.
    Today our focus has shifted toward attempts to reduce our 
space footprint. We have a goal of a three-percent reduction by 
2018. Obviously anything we could do to accelerate that would 
be excellent. We are trying to move probation and pretrial 
services offices and other court offices that are in leased 
space back into courthouses whenever feasible in order to 
release space.
    Over this whole period of time, we have closed about 18 
non-resident facilities. We are looking for other opportunities 
to close entire facilities and to release space.
    Courts are getting pretty creative about it. In my own 
court, the library is giving up all of its space and moving 
into clerk's office space that was made available when we went 
to an automated case filing system and now we have extra space.
    Now, problems with the GSA. We have tried to have a 
constructive relationship with them, and we do, but there are 
just tensions inherent in the system.
    First, we believe that in many cases we are not charged an 
appropriate market rate for the facilities we rent. When they 
do construction for us, it seems to be at costs that are not 
really competitive and that are higher than we should pay. 
There tend to be construction delays that further drive up the 
cost.
    With respect to this effort to release space, it is a 
little hard sometimes to get GSA to take the space back in a 
timely manner. We, of course, have to continue to pay the rent. 
No discretion about that. Yet rent as a percentage of our 
budget has not been subject to sequestration or other cuts. So 
we have to pay that, and that is one of the reasons in accounts 
like ours that are so heavily people and rent, that it is very 
hard when we have no way to quickly reduce our rent costs, that 
is one the reasons that the burden seems to fall so heavily, so 
fast on the personnel side of things.
    Chairman Coons. Thank you, Your Honor. I am, as a former 
clerk, loath to ever interrupt a judge, but forgive me, I am 
out of time for my first round of questioning.
    Judge Gibbons. I am so sorry I took all your time. I warned 
you there was going to be a lot to say there.
    Chairman Coons. We will have several rounds. I have other 
questions for the other witnesses, but thank you, Your Honor.
    Senator Sessions.
    Senator Sessions. Judge Gibbons, I was just reminded at the 
time you were appointed to the Sixth Circuit, eight of the 16 
seats were unfilled due to basically a systematic filibuster by 
Democratic colleagues. They have forgotten all that. A lot of 
these new ones were not here during that time. But it was 
really an extraordinary thing.
    Somehow you guys got by with eight instead of the 
authorized 16 judges----
    Judge Gibbons. Well, I was not part of that----
    Senator Sessions [continuing]. But this indicates to me 
that we have had other shortages around sometimes, and we have 
had to work our way through it and try to maintain the quality 
of justice at the same time. Would you agree that sometimes you 
can work your way through----
    Judge Gibbons. We have worked our way through a lot of 
those kinds of situations, particularly with judicial 
vacancies. That is easier than the staffing problems because 
you can rely on visiting judges. We have inter-circuit 
assignments. We have a lot of ways to work around that, but 
fewer ways to work around staffing issues.
    Senator Sessions. Let me ask you this: I have a little 
difficult time, Mr. Chairman, of understanding exactly--I 
should know this--how the sequester works. Looking at the 
judicial branch total discretionary--total outlays in 2007-
2012, it was $6,000,470 million. In 2013, it went up a little 
to $6,548. And after the sequester, it was supposed to go--it 
was projected to go to that, I guess, $6,548, and it dropped to 
$6,241. So that would be about a $200 or $300 million dollar 
reduction.
    Now, is that number the number that goes to the AOC and 
they distribute it? Or does Congress mandate each one of the 
sub-accounts and how much goes to each?
    Judge Gibbons. Of course, we have four accounts under 
sequestration. Each of them had to be cut. As I understand it, 
the sequester----
    Senator Sessions. Was that cut by Congress or the----
    Judge Gibbons. It is statutorily mandated that we had to 
take the cuts in each appropriation account. The five-percent 
sequestration cut, you will recall, was taken not from a 
regular-year appropriation but from a continuing resolution, 
which had already seriously jeopardized funding.
    Senator Sessions. Which is flat.
    Judge Gibbons. Yes. And then we end up with these--for the 
judiciary, the total sequester is $350 million. We end up with 
these areas of the budget where we cannot take the cuts. Rent 
would be one of them. Judges' salaries are, frankly, another. 
You know----
    Senator Sessions. Constitutionally protected.
    Judge Gibbons. Constitutionally protected. So we end up 
with this situation where, you know, our workload, the 
defenders--not just the defenders' workload, but the courts' 
workload is completely controlled by what comes in our doors. 
It is not our own choice. We do not have optional programs we 
can eliminate like many parts of government. Everything we do 
is constitutionally and statutorily mandated.
    Senator Sessions. Right. Well, you have got the clerks' 
offices, which have been exceedingly technologically advanced. 
People submit briefs by computer now without even coming and 
filing. And you have an incredibly high percentage of cases 
decided by pleas, civil and criminal. It is stunning, the 
percentage. What was it, 97 percent of criminal cases now are 
disposed of by guilty pleas instead of trials? And likewise in 
civil cases are very high.
    It seems to me that there are opportunities to continue 
those trends in a more efficient way, and I am sure the clerks 
hate to lay off people, but as time goes by, if they can get by 
with fewer people, they need to work in that direction.
    Judge Gibbons. You know, they have been working in that 
direction.
    Senator Sessions. I think they have, and I am just raising 
some of the good news out there. It is not all bad.
    Now, Mr. Nachmanoff, I hear, well, it could be 25 percent 
of our staff next year. I do not see how a five- percent 
reduction in funding can result in a 25-percent reduction in 
your staff of an office. It sounded like to me maybe the guys 
at the top are keeping their money and making all the cuts fall 
down there on the people who are doing the work. How can this 
be?
    Mr. Nachmanoff. Well, I am not in a position----
    Senator Sessions. And do you know--can you tell me what the 
numbers are, say, before the sequester took place and where you 
expect it to go in actual outlays for your agency?
    Mr. Nachmanoff. Yes, Senator, I will do my best with the 
numbers. As a result of the Budget Control Act, in 2013 the 
Defender Services account was deprived of $52 million. So for 
our account, that was a very big number. It amounted to almost 
nine percent. But we were told of that almost halfway through 
the year. So for us as managers on the ground, we had to 
implement it in a shorter amount of time.
    Senator Sessions. It was passed much earlier than that, 
August 2011, when the bill was passed.
    Mr. Nachmanoff. Yes, Senator----
    Senator Sessions. Why did they wait--like they did the 
Defense Department. They told the Defense Department--the 
President did--not to plan, was not going to happen, do not 
worry about it, or something. And now they had to do in seven 
months what should have been done in 12.
    Mr. Nachmanoff. I understand----
    Senator Sessions. Is that similar to you? Who told you not 
to plan for it?
    Mr. Nachmanoff. Well, we defenders in the field get 
guidance with regard to our budgets. We got interim budgets as 
a result of continuing resolutions, and we represented the 
clients that we represent. In the Eastern District of Virginia, 
we accept every case absent a conflict. In the Eastern District 
of Virginia, that comes out to somewhere around 70 or 75 
percent of the cases, as I am sure you are aware. In districts 
where they bring large multi-defendant cases, the defender can 
only take one, and so that percentage might be lower, but that 
is not a function of turning away cases.
    And so we represented those clients as we were required to 
do, and we had to spend our funding in order to defend them.
    At a certain point, we were told that we would not have the 
money that was anticipated and, therefore, had to manage and 
still maintain our ethical obligations to our clients.
    In my district, we are currently in the midst of a multi-
month death penalty trial involving alleged Somali pirates. You 
can imagine how cost-intensive that is for staffing and 
resources. That left us with no choice (since we were not going 
to abandon that client, and no one--not the court, nor our 
client, nor anyone else--would expect us to do) but to make up 
that shortfall through furloughs and through layoffs.
    We know now, going into 2014, that if there is another 
continuing resolution and there is flat funding, there is going 
to be more than double that in terms of a shortfall in the 
Defender Services account. And so we have to manage that 
(shortfall) and think about how we are going to make up for it.
    The question about the degree of separations, I think, is 
important. We have to pay severance and unemployment 
potentially and annual leave when an employee leaves. And so if 
we separate, unfortunately, a needed, valuable member of our 
team, not because they are not doing a good job, but because we 
do not have enough money, we may separate them and still be 
obligated to pay them for four months, six months, maybe even a 
year, depending on their eligibility for severance and 
separation costs.
    So as we try to make up the shortfall that we are told we 
may have, if we are not going to furlough employees for weeks 
or months at a time--which we cannot do; it is not fair and it 
is not practical--it means we have to lay off people, and we 
have to do it much sooner.
    Senator Sessions. Thank you. I wish we had more money. We 
are in a deep, systemic problem, and we are going to have to 
deal with entitlements, because that is, with interest, you are 
pushing about 40 percent of the entire expenditure of the 
United States, basic entitlement programs plus interest. And 
there is a limit to what the discretionary accounts can 
sustain.
    Thank you, Mr. Chairman.
    Chairman Coons. Thank you, Senator Sessions.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman Coons, for hosting 
this, and thank you to all the witnesses for being here. This 
is a matter of considerable concern. Our new Public Defender, 
who had been a Federal Public Defender in Rhode Island, Mary 
McElroy, has been in touch with me about the importance of what 
this does to the Federal Public Defender's Office. I believe 
that a July 22nd letter from the National Association of 
Assistant United States Attorneys is in the record. Is that 
correct?
    Chairman Coons. That is correct, Senator.
    Senator Whitehouse. OK, good. And that helps explain how 
this is not a prosecutor versus public defender thing. I was a 
U.S. Attorney. I was Attorney General of my State. We want a 
justice system that works, and we want a viable, robust public 
defender on the other side. That keeps cases moving more 
quickly. It prevents unnecessary detentions. It is good for the 
system. And that was the point made by the National Association 
of Assistant United States Attorneys.
    I would also like to put a letter in the record from 
Attorney General Holder and James Cole, the Deputy Attorney 
General, stating, among other things--it is a June 12th letter 
of this year--``We recognize that the court system operates 
effectively only when all of its functions are adequately 
funded and fully operational. This includes funding for court 
employees, probation and pretrial services officers, and 
Defender Services (which provides defense counsel guaranteed 
under the Sixth Amendment). An effective court system is one of 
the foundations of our democratic society and one of our 
Nation's bedrock institutions.''
    So I think we have really important calls to try to get 
this right. We had this exchange earlier in the Budget 
Committee, Senator Session, and I would respond to what he said 
by it is not--I know the Senator seeks a balanced approach. It 
is not a balanced approach if you are not going to raise any 
new revenues. It is not a balanced approach when you are 
putting the well-being of billionaires who are paying lower tax 
rates than brick masons ahead of solving this problem. It is 
not a balanced approach when a company like CVS in Rhode Island 
pays a 35-percent tax rate, as the law requires, and Carnival 
Cruise Lines pays 0.6 percent because they have figured out how 
to record their profits overseas and hide it from American 
taxation.
    It is not fair when Apple is taking all of its intellectual 
property and pretending it exists in Ireland and not in the 
United States and dodging their American taxes that way, too.
    There are things that can be done to not raise the tax 
rates in this country, but to get rid of the loopholes and the 
special services that have been provided to special interests 
in the Tax Code for many decades now, and we need to be--I do 
not think you can have a balanced approach if you are 
protecting those preserves of special interest benefit. I think 
you can only have a balanced approach if you are really going 
at it across the way.
    And, yes, there is steady growth in the Federal budget, but 
there is also steady growth in the U.S. population. There is 
steady growth in our GDP. There is considerably more than 
steady growth in our senior population, and seniors take more 
money than they did when they were younger because they use 
more health care. There is steady growth in income inequality 
in our country.
    So I think our target really has to be to try to get rid of 
the sequester in a fair and balanced way, and problems like 
this, problems like we heard about in the Budget Committee this 
morning on the defense side, can then be addressed. But it is 
really asking a lot.
    Mr. Nachmanoff, your testimony was terrific, and I 
appreciate what you said. You do not have the slippages. You 
are basically an all-personnel outfit, and as a guy who has run 
government offices before, I know perfectly well that it can be 
very expensive to let somebody go. You can actually be a money 
loser in the short run with that proposition. So you could be 
in a really desperate situation if we do not solve this.
    So I hope we can find a way to work together to do this. 
One of the best ways to do that would be simply to have the 
House and the Senate appoint conferees on the budgets that we 
adopted so we could do what the law ordinarily does, which is 
take the House and the Senate measures and put them in 
conference so we can work it out. Unfortunately, the House does 
not want to do that. They do not want anybody to--conferences 
are public now. There was a time when you went into the back 
room, and they might have been willing to do that. But they are 
public now, which means they have got to defend the budget that 
they have passed in the full light of day. And they do not want 
to do that because the budget is a really extreme budget.
    And so we are stuck. And if we could only get through that, 
if we could only get conferees appointed, then I think in the 
regular order of the Senate we could get rid of the sequester, 
and we could find a reasonable way forward.
    So I thank you for holding the hearing and bringing this 
piece of the problem to everyone's attention, and with five 
seconds left, I guess I will close. Thanks.
    [Laughter.]
    Chairman Coons. Thank you, Senator Whitehouse.
    And before I turn to Senator Klobuchar, I would just like 
to ask consent to enter into the record a letter from Mr. 
Nachmanoff as well as letters from many of the Federal Public 
Defenders, other colleagues of his throughout the country, 
including in particular Delaware Federal Public Defender, Edson 
Bostic, who I would like to specifically welcome to this 
hearing today. It was his outreach to me that helped inspire me 
to hold this hearing today.
    There are also letters for the record from Federal Public 
Defenders from each judicial district within the Third Circuit 
detailing the impact of sequester on their offices.
    [The letters appear as submissions for the record.]
    Chairman Coons. Now I would like to turn to Senator 
Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. I 
note that we have the two previous Chairmen of this 
Subcommittee, Senator Whitehouse and myself here, because we 
really do believe we need functioning courts, and Senator 
Sessions and I worked together when I chaired this 
Subcommittee.
    I also wanted to thank you for your testimony, Judge 
Gibbons. I am going to turn to a few other issues on the public 
safety front and actually the business front about why we need 
to have functioning courts.
    I come from a background as a prosecutor, and I testified 
and sent letters into the legislature supporting the public 
defender's budget as a prosecutor in Minnesota because I always 
believed we were ministers of justice and that we did our job 
best when we had worthy opponents, that it was very hard to 
figure out the facts sometimes unless we had a good defense 
lawyer on the other side. So we were able to maybe get a better 
result if we knew every fact, and if there was a trust in 
someone who could do a good job, we got better results. So I 
want to thank you for that.
    I was curious, Mr. Allen. We are working very hard on 
patent reform, and actually Senator Lee and I are holding a 
hearing next week on some further issues that develop with 
that, and patent trolls and other things. And we are really 
trying to move these cases through faster. Could you talk about 
the effect on businesses if you have slowed-down court 
proceedings when you are trying to get through litigation and 
things that promote innovative like patents?
    Mr. Allen. I would be happy to, Senator. There is no 
question that on the civil side we somewhat take a back seat 
because the criminal docket has to be heard due to the Speedy 
Trial Act. For the civil side, we tend to wait patiently. And I 
can say unequivocally that----
    Senator Klobuchar. I do not know if it is always patiently, 
but go on.
    Mr. Allen. We do the best we can, but there is no question, 
especially with patent cases. That is a whole separate issue 
outside the purview of this Committee. But for patent cases, 
there are onerous delays on judicial courts, and they take up 
so much time that they often get pushed to the back burner. 
When I mentioned there are motions that may be pending for six 
months, eight months, to a year, those often can tend to be 
patent cases where the rulings might be 50, 80, 100 pages long.
    The dilemma is that, for civil practitioners, we frequently 
find ourselves discussing with clients, large corporations, why 
justice in a sense cannot be done. For example, I have right 
now cases where there are pending motions for injunctive 
protection, where the Federal court is the right jurisdiction 
to ask that things be stayed in a certain place, that things 
not change, that there be an injunction in place to help, 
whether it is protecting intellectual property, and a decision 
from the court simply takes time. Whereas, you go in for 
emergency assistance, you need something before trial for 
protection, you might not have that assistance for six months 
or eight months. And it is difficult at times to express to 
clients what happened to American justice. Why, if we hold a 
patent, and it is clear infringement, or a domain name has been 
taken by, in essence, a pirate, why can't we get that back? And 
the simple answer is because the courts have a tall stack of 
motions on their desk, and we have to wait our turn. And it is 
having a real effect on all types of business interests.
    I noted that there is a significant difference between the 
Federal courts and an agency which has, as Senator Sessions 
noted, its hand out to Congress. But what is so significant 
here is that unlike other Government agencies scrambling for 
those scarce Federal dollars, the American judiciary is a 
coordinate third branch of the people's form of Government.
    In fact, Justice Roberts noted that for every taxpayer 
dollar, there is only two-tenths of one penny that funds one-
third of our U.S. Government. That is a staggering statistic. 
Very efficient, I might add, that they are able to do that. And 
that is the reason I am here today, to express that concern. 
The people instituted a Federal system that has three 
coordinate branches of Government. The Congress is entrusted 
with the safekeeping of America's judiciary. And we are at a 
point where this one-third of the U.S. Government is pleading 
for assistance so they can do the work of the American people 
under the Constitution. And businesses and individuals are 
suffering under the reality that motions may take 6 months, and 
that honestly justice delayed is indeed justice denied.
    Senator Klobuchar. Right. And I just look at this some--my 
State is second per capita for Fortune 500 companies. We have 
thriving companies. 3M has as many patents--each employee has a 
patent, basically. And so I see this not just as a trial lawyer 
lawsuits, which are important, not just that, but just this 
natural work of doing business is going to involve from time to 
time litigation over contract disputes over many things. And we 
have to make sure it is functioning as we look at the future 
here for our economy.
    And I guess my second question for you, which has been 
touched on from some of the other Senators, Mr. Nachmanoff, is 
that perhaps one of the most serious impacts of these cuts on 
the Federal courts is the delay, which was pointed out by Mr. 
Allen, in judicial proceedings. An op-ed in the New York Times 
this weekend highlighted that in April a major terrorism trial 
in New York City being handled by the Federal defenders was 
postponed until January after lawyers in that office told the 
judge that budget cuts had left them short of the resources and 
staff necessary to effectively litigate the case.
    Has your office requested similar postponements? Do you see 
this going around the country? And specifically, as I talked 
about, we need this to have the Justice Department function. 
What will be the effect of losing experienced public defenders 
due to sequestration cuts?
    Mr. Nachmanoff. Yes, thank you for the question, Senator. I 
come from the ``rocket docket,'' the Eastern District of 
Virginia, which prides itself on speed, and so asking for a 
continuance is usually not looked upon with favor. But there is 
no doubt that around the country that example from New York is 
not unique. There are many places where cases have been 
delayed.
    In my district, as a result of the impact of furloughs and 
layoffs from the sequester, we have had, for the first time, to 
decline the cases. We have declined five cases. Those cases 
have all been resource-intensive, serious cases. Those are 
exactly the sorts of cases that the Federal defender should be 
taking. We have the expertise to take those matters on--
international fraud cases, death-eligible cases, arms export 
control cases. Those cases still need a lawyer, and those 
lawyers now will be appointed from the CJA Panel. And I agree 
with Judge Gibbons that there are many fine CJA lawyers, and 
Federal defenders play an important role in supporting the CJA 
lawyers. But the fact of the matter is that we do the work, 
especially on the big cases, most efficiently and most cost 
effectively because we have the institutional ability and the 
expertise to do that.
    And so what we see is not just delays in the system 
already, but we see costs rising. And as things move forward, 
those costs will rise dramatically as defenders will be forced 
to take fewer cases because there simply will be fewer of us.
    Senator Klobuchar. Thank you very much, and thank you, Mr. 
Chairman.
    Chairman Coons. Thank you, Senator Klobuchar.
    Just a follow-on to that point, I would ask consent to 
enter into the record a Federal Public Defender's Fact Sheet, 
which contains, among other things, a study showing that 
representation by Federal Public Defenders costs about 71 
percent as much as comparable representation by an appointed 
CJA Panel attorney.
    [The information appears as a submission for the record.]
    Chairman Coons. If I might, Judge Gibbons, just on one 
other point, the Conference has the authority to reallocate 
money from one account to another, and the judiciary has, in 
the past, dealt with fiscal crises by delaying payments to 
panel attorneys so as not to threaten the functioning of 
defenders' offices. Do the pending cut to defenders' offices 
throughout the country justify such action this year, delaying 
payments to panel attorneys? And would it, in the long term, 
have a positive or negative impact?
    Judge Gibbons. Well, as you probably know, for 2013 the 
Executive Committee of the Judicial Conference is the entity 
within the judiciary that makes the decisions about the 
spending plan, the financial plan. So that is not a part of our 
work. But, of course, we are privy to it. We on occasion are 
asked for input.
    This year, after receiving a great deal of input from many 
different sources throughout the judiciary, the Executive 
Committee did decide to defer panel payments for 15 days. That 
same sort of decision will have to be made, how to handle the 
cuts in the defender services account for 2014, on an interim 
basis, if there is not a budget in place by October 1. So that 
decision will have to be made once again.
    Some of the things I think the Executive Committee will 
consider are, of course, the impacts that have already occurred 
to the Defender Program, the impacts that are likely to occur 
if deferrals are not made, the undesirability of pushing 
obligations that must be paid into a new appropriations year. 
We would like to be able to live within our means for a given 
year. It is not good from our appropriators' standpoint either.
    But then you have the overall interplay between the two 
parts of that account. As defenders are harder pressed, it is 
very likely--we are already seeing rises in panel 
representations. That makes the panel costs very hard to 
control because you are not operating on historical data 
anymore. You are operating based on a situation that is 
occurring right before you.
    So it is a very hard decision that the Executive Committee 
will have to make in terms of what to do to the defender 
services account. It has considered some other options, things 
like cutting the vouchers by a certain percent. They have 
explored whether or not the Judicial Conference has the 
authority to reduce the hourly rate for panel attorneys. They 
were very reluctant to do that in the past because we worked so 
hard to get that rate and it is, frankly, hardly adequate. And 
so just a lot of complicated considerations. But, yes, 
everything will be considered, I am sure.
    Chairman Coons. Thank you, Your Honor.
    Mr. Nachmanoff, if you would, just go into a little more 
detail about how you have struggled to deal with the mandate to 
cut costs when, frankly, Federal prosecutors, not defenders, 
determine your workload and when personnel are such a large 
driver of your total budget.
    Mr. Nachmanoff. Yes, in this fiscal year, we have 
undertaken all of the cost-cutting measures that I have talked 
about previously. Before going to furloughs and before going to 
layoffs, we tried to eliminate every other area that we could, 
which is a very narrow band of costs. We went back and 
renegotiated expert rates. That is in the face of experts that 
are paid by the Government sometimes twice or three times as 
much. We are concerned with quality, and my employees 
understood that one thing we were not going to do was 
compromise on the representation that we gave to our clients.
    And so after cutting training, cutting travel, 
renegotiating and discounting fees to experts, we were left 
with still asking people to forgo salary, and that includes me, 
and it includes every other employee in my office. And that has 
been true of many other Defenders around the country. But even 
that was not enough, and we had three people take early 
retirement who had a combined 80 years of experience of Federal 
service. We lost tremendous institutional knowledge with their 
retirements. I laid off an employee, and I had a military 
reservist who volunteered to go on active duty to assist our 
office.
    We have tremendously dedicated staff, and that is true of 
Defenders around the country; they will do whatever it takes to 
defend our clients and protect this program. But they cannot do 
that if I have to lay off 25, 30, 40 percent of them.
    Chairman Coons. Thank you, Mr. Nachmanoff.
    Mr. Nachmanoff. Thank you.
    Chairman Coons. Senator Sessions.
    Senator Sessions. Well, I do not think you should have to 
lay off that many. If this were a large national private 
corporation, they would recognize when one of their branches is 
facing a crisis in the workload with several big cases that 
demanded more time, and they would reassign somebody to it, I 
think. I just talked to a person who said their company, a big 
national company, they said their company--so they are not 
hiring anybody until the GDP grows faster than two percent and 
the vacancies are not being filled. Companies are doing this 
all over the world.
    So the Department of Justice and the Administrative Office 
of the Courts are not above that. We do not have the money to 
run the Government. And we are not going to just keep raising 
taxes every time. So that is the problem we have got. It is 
very serious, and I hope--I want to find out more about the 
public defenders, because I think your hits have been pretty 
aggressive, I have heard from a number of sources, and maybe we 
can deal with that.
    Judge Gibbons, in Birmingham, in the Northern District of 
Alabama, Federal judges somehow manage their own building, 
rental space, and they are very, very happy with it. And GSA is 
not in the picture. They believe it saves money and the courts 
are more happy with it.
    Have you discussed that, you and your colleagues?
    Judge Gibbons. We have tried hard to do that whenever we 
can get in a situation to do it. We even made efforts a number 
of years ago to extricate ourselves completely from GSA. We 
were unsuccessful. And so certainly we have looked for every 
opportunity that we could reasonably pursue to gain 
independence in managing our own facilities.
    Senator Sessions. Well, I think----
    Judge Gibbons. And I congratulate the court in Birmingham 
for having gotten to that point.
    Senator Sessions. Well, it came to a point of extending it, 
and there was some concern about it, and I studied it and 
thought they were exactly correct. We were able to maintain 
that, and there was no doubt that every judge was absolutely 
confident it saved money and things ran better.
    Judge Gibbons. Well, we believe that a situation where we 
were able to manage our own facilities would be very--it would 
save money. It would promote good government. But we have not 
been able to get there yet.
    [Clerk's Note.--Subsequent to the hearing, Judge Gibbons 
provided the following information:]
    Regarding operating our own courthouses and buildings, at 
its September 1989 session, the Judicial Conference adopted a 
policy that the Judiciary should pursue legislation in Congress 
to allow us to manage and operate our own facilities, 
independent of GSA. The Judicial Conference reaffirmed this 
policy in March 2006. While there are certainly merits to this 
idea, the Judicial Conference has not in recent years 
aggressively pursued legislation to implement independent real 
property authority for the Judiciary. There would be 
significant upfront costs involved, including the hiring of 
potentially large numbers of staff to manage and maintain 
federal court facilities around the country, or contracting 
with a large commercial real estate firm to perform that work. 
Also, it would constitute a significant responsibility that 
veers dramatically from our core mission to deliver justice. 
After these upfront investments are made, we believe there 
could be cost efficiencies; however, given the austere federal 
budget environment, we do not believe it is prudent to actively 
pursue independently real property authority for the Judiciary.
    The Judiciary has participated in GSA's building operations 
delegation program on a limited basis since the Judicial 
Conference approved a pilot program in March 1988. Under this 
program, federal agencies receive a delegation from GSA for the 
daily operation and management of their buildings. Two courts 
participated in the program but currently only one facility 
remains--the Hugo L. Black U.S. Courthouse in Birmingham, 
Alabama. The Judicial Conference terminated the Judiciary's 
participation in the program in 2005, except for the delegation 
to the Birmingham courthouse, which is subject to certain 
limitations. Beginning in FY 2004, GSA instituted changes to 
the building operations delegation program, the most 
significant being that GSA shifted the responsibility for all 
repairs--regardless of cost--to the delegated agencies. These 
new terms meant that the district court running the building 
operations in the Hugo L. Black U.S. Courthouse had to begin to 
budget and plan for projected repairs and maintain a reserve 
fund for unforeseen repairs. This added a significant cost 
liability to the Judiciary's budget in the event the building 
was damaged due to fire, flood, natural disaster, or some other 
occurrence.
    The Space and Facilities Committee of Judicial Conference 
periodically reviews the building operations delegation program 
and looks at the costs and benefits of expanding it. In light 
of a court's liability for unforeseen repairs, the Space and 
Facilities Committee has no immediate plans to recommend 
expansion of the building operations delegation program.
    Senator Sessions. I do not know where the cases are 
nationwide. In recent weeks we looked at gun prosecutions. They 
have been dropping. I looked at the bank fraud cases. They are 
not up, actually down a little bit over the last number of 
years. As I said, the number of cases actually going to trial 
is--of course, that has been going on for a decade or more, but 
those are remarkably low. You have situations such as here is 
the D.C. Circuit, which has the lowest caseload in the country, 
and my colleagues seem determined to fill a vacancy on that 
circuit when their caseload per judge is less than half of the 
national average.
    So there may be yet some places that we could save some 
money, while at the same time some district courts and circuit 
courts may be at the limit.
    Judge Gibbons. If I could just briefly address how we take 
that into account. We have work measurement formulas that 
determine or suggest to us--that provide guidance to us on the 
number of staff that a particular court needs, and they respond 
to changes in filings. So it is not like we are constantly 
building up a higher and higher number.
    Senator Sessions. Well, your staff may be, Judge, but we in 
Congress set the number of judges, so----
    Judge Gibbons. Oh, that is absolutely true. On the other 
hand, our recommendations to you are also based on filings and 
change over time. But for staff within the courts, our clerk's 
office employees, in district, bankruptcy, and appellate 
courts, our probation and pretrial services officers, the 
numbers of those we need are responsive, among other things, to 
filings and do change as the formulas are repeatedly applied.
    We have a methodology we have been using for determining 
resource needs in the defender offices, but our Judicial 
Resources Committee is undertaking a work measurement 
assessment of the defender offices to try to gain a better 
handle on where the resources ought to be allocated within 
those offices. It is going to take a couple of years to get it 
done, but we are moving in that direction.
    Senator Sessions. Mr. Chairman, thank you for your courtesy 
and your excellent leadership. We are glad to have you here to 
set a good example for us on how we ought to conduct our 
business.
    I will just conclude by saying that when I got elected 
Attorney General in Alabama in 1994, my predecessor--one reason 
I won, he had gotten so far behind on his bills that he could 
not pay the electric bill. And that all came out like in 
October.
    But we had a real crisis when I got elected, and he had 
hired a large number of people outside the merit system, and it 
amounted to a third of the office. We were $5 million short on 
a $15 million budget, and so I terminated a third of the 
office. I did not know what would happen. We reorganized. We 
closed offsites. We got rid of automobiles. We reorganized in 
the office. And one senior person said, ``I hate to admit it, 
but I am doing more and enjoying it more.'' But we put people 
to work, and they still have not got back to that number today. 
This was 18 years ago.
    So we think sometimes we cannot do things more efficiently 
and more productively. My experience is sometimes we can 
surprise ourselves when we have to make fundamental changes and 
create efficiencies. I do believe that the Chief Justice and 
most of our judiciary do believe in efficiencies and are 
working in that regard. It is odd that the Department of 
Justice, an entirely different agency than the Administrative 
Office of the Courts, has been able not to cut their personnel, 
and you are having to cut yours. It is just one of the many 
inefficiencies sometimes that occur in our Government, and it 
makes it harder for us to reach the level of efficiency the 
taxpayers are entitled to.
    So thank you all. We have a great court system. It is going 
to be a tight time, I have got to tell you, for the next 
several years. But 2015 will be the progress year, on at least 
the Defense Department budget. I know how that goes. And I 
think it is the same with you. Next year will be the worst 
year, and then there is a steady increase in funding for the 
next eight years or so of the cycle, ultimately depending on 
Congress. But next year is going to be a tight year, so I am 
glad to hear your concerns.
    Chairman Coons. Thank you, Senator Sessions.
    I have one or two more questions that I will go to, and 
before I return to asking a few questions, I will ask consent 
to enter into the record a series of articles and letters that 
I neglected before from media and advocacy groups: a New York 
Times editorial, from the Atlantic Monthly, from AP, the Hill, 
and apparently a January article from the Federal Bar 
Association, as well as a letter delivered today by a group 
called Justice at Stake.
    [The information appears as a submission for the record.]
    Chairman Coons. Judge Gibbons, if I could, just one last 
question for you. When making the decisions about where to cut, 
how does the Judicial Conference weigh the needs of Article III 
judges against the needs of Article I judges such as the 
bankruptcy courts--which, as was noted, play a particularly 
important role in Delaware--or the Federal Defender Services? 
How are those weighed?
    Judge Gibbons. Well, no one area receives more weight than 
another area. I mean, it is very much--our processes of asking 
for money are highly governed by--or heavily ``guided'' is a 
better word--by our ways of assessing our needs, and our 
process of executing the budget, i.e., allocating the money to 
the courts, is also governed by various formulas and 
allotments. But there is nothing in the system that, for 
example, values the work of an Article III judge more than the 
work of an Article I judge, nor is there anything that values a 
clerk's office more than a Federal defender's office. The 
system is just not set up in that way, and I feel as confident 
of this decisionmaking process as I do of any decision-making 
process within the judiciary in terms of its ability to take 
all the needs, the interests of the courts, the interests of 
the users of the courts, the public interest generally, all of 
those things into account, and do the best job we can of making 
a fair and equitable and prudent distribution of the limited 
resources.
    You know, we really feel, as I have said before, that we 
have done a really good job of our management. We have been 
looking at things afresh all along, as Senator Sessions 
mentioned. It is true workload fluctuates. Our courts are 
staffed right now at 1999 levels. There have been fluctuations 
in filings during that time, but workload overall during that 
period has increased far more than our staffing has increased 
when you look at where we are today.
    Chairman Coons. Thank you, Your Honor.
    If I could, Mr. Allen, just two quick questions. We have 
heard testimony today that sequestration has limited the 
judiciary's ability to upgrade and maintain its information 
technology systems. Senator Sessions referenced the dramatic 
change in the number of cases that are filed online and the 
amount of management that is being done online. But it is also 
an area where there have been reductions.
    So just help me understand, if you would, how current 
deficiencies in the courts' IT systems affect your clients' 
ability to get swift and reasonable resolution. And, second, if 
the courts run out of money for civil jury fees next year, what 
would that mean for your clients and for the reasonable and 
timely resolution of their cases?
    Mr. Allen. Thank you, Senator. The first issue, IT, is a 
significant one. As Senator Sessions noted, there has been 
progress over the last decade or so to update our system where 
most filings in Federal court use the PACER system and those 
pleadings are done electronically.
    The problem we have seen already over the first decade or 
so of the system is that it has quickly become somewhat 
outdated. There are limitations on how large exhibits can be. 
There are many courts that require and ask that we still submit 
actual hard copies of documents. Those issues are, I think, 
being addressed, but there are some limitations, and there is 
no plan in place to update or improve the system that we can 
see from the civil side.
    Likewise, in Federal courts, I have seen courtrooms across 
the country, whether it is sophisticated systems for displaying 
exhibits or other technological advances, if you will, that are 
discarded because they simply are not working or there are not 
the personnel to have the time to fix them for a court 
proceeding. And what we see is you usually have one or two IT 
personnel for a courtroom that are overworked and, in fact, I 
think there is a possible likelihood that we will see a lot of 
transition in that position, which means you have someone new 
coming on. I definitely have seen a loss of some of the 
resources of the courts being made available to civil 
practitioners.
    To the second issue of civil jury fees, if the money is not 
there and civil juries in essence temporarily go away, that 
raises the issue we talked about previously, which is justice 
delayed is justice denied. And for large corporations and other 
individuals in particular, when you have a dispute that can 
only be resolved by the Federal court, that is the forum under 
the U.S. Government to go in and resolve an issue. It is 
exceedingly difficult to have no timeframe as to when that 
dispute will be resolved, whether it is a patent holder who 
does not know for how long they will have to wait before they 
get royalties or for how long a case will go, and it is very 
expensive to finance litigation. That becomes a real economic 
issue for clients and for personnel. And the idea that civil 
jury trials may actually go away or at least temporarily go 
away means further delays.
    For example, you may have spent all this money to pay for 
lawyers and witnesses to be there, and suddenly the courts have 
to say, ``Not this week,'' ``Not next month.'' And that ongoing 
delay causes real resources to have to be spent by corporations 
and they do not have a way of planning. It has become a true 
crisis.
    Chairman Coons. Thank you, Mr. Allen. You know, frankly my 
concern is that those delays also further drive the 
acceleration of the use of arbitration rather than Federal 
courts, which has its own problems, the lack of a development 
of decisional law, and the sort of privatization of our Federal 
court system that is happening through an increasing turn to 
arbitration. I think the longer delays there are, the more that 
happens. There is a whole range of consequences here--human 
justice, and systemwide--that we have been discussing.
    I would like to welcome Senator Durbin for his round of 
questions.
    Senator Durbin. Thank you very much, Mr. Chairman. I 
apologize for being late and will just ask a few questions.
    First, by way of introduction, Terence MacCarthy, defender 
emeritus of the Federal Defender Program for the Northern 
District of Illinois, has been a close friend for many years, 
and he has written me a lengthy letter about the impact of 
sequestration on his program where a third of their 40 
attorneys are going to be furloughed in some form and unable to 
be part of this process, and he asked me to come to this 
hearing, and it is particularly because of his letter that I 
wanted to make a point of coming, even at the end of it.
    Judge Gibbons, given the fact that U.S. Attorneys already 
have more resources available to them, is sequestration 
increasing the gap in resource parity to a point that calls 
into question whether indigent defendants are getting full due 
process and an adequate defense under the law? I ask you this I 
guess on the 50th anniversary of Gideon.
    Judge Gibbons. Certainly we are threatening to get to that 
point, and the problem is made particularly acute--I mean, this 
year, 2013, has been a very difficult one for the defenders. 
When you use figures like the one-third, they are having to 
plan based on the possibility, perhaps some would say even the 
probability, of flat funding or even declining funding for 
2014. They must make their decisions now so they will not be 
caught, as they were in fiscal year 2013, midway through the 
year having to make very dramatic adjustments.
    So I think when you get to the point when you have a very 
small staff, as these offices do, where you have attorneys who 
are a big chunk of the staff, when there are not too many 
alternative ways for an attorney to do his or her work--I mean, 
you have to prepare the case, you have to talk to the client, 
you have to go to court. I do not know of any other options. I 
do not know too many courts that have said attendance is 
optional.
    And so when you have that little flexibility, you have 
constrained funding and you have unpredictability, it is a 
scenario that can result very quickly in the dismantling of a 
system that has really been a source of pride for the judicial 
system.
    Senator Durbin. So, Mr. Nachmanoff, let me ask you, should 
the defenders' budgets be calibrated to the Department of 
Justice budget? Is it an increase in funding for DOJ that means 
more cases are going to be brought in Federal court?
    Mr. Nachmanoff. That is an excellent question, Senator. 
Thank you. And there is no doubt that the function of Federal 
Defenders is tied inextricably to the charging decisions and 
funding of the Department of Justice, and the suffering that we 
have endured this year and the suffering that we will endure 
next year has to be seen in the context of what is going to 
happen with the Department of Justice. The Senate 
Appropriations Committee last week approved an increase for the 
Department of Justice, including U.S. Attorneys, our direct 
counterparts. The approval was for a $2 billion budget, a $79 
million increase. And the statement was ``for the purpose of 
bringing more cases.''
    And so we can expect that the Department of Justice will 
bring more cases in a place like the Northern District of 
Illinois. I am humbled to be associated in any way with Mr. 
MacCarthy, who is a giant and a legend of the Federal Defender 
Program, and this is an office that goes back to 1965. The 
notion that that office is facing potentially laying off a 
third of its staff is unconscionable, and it is directly tied 
to what will happen in the U.S. Attorney's Office in the 
Northern District of Illinois where they have 152 Federal 
prosecutors to 19 Federal defenders.
    If Carol Brook is required to lay off staff, that ratio 
will be even more out of whack. It will be more imbalanced. And 
we have to ask ourselves, can we have a fair system of justice? 
It may well be that thinking about the appropriations for the 
Department of Justice in the context of what the Defender 
Services accounts needs would be a very wise thing to do.
    Senator Durbin. And obviously it can lead to justice 
delayed and justice denied, as I see it, in terms of trying to 
sync up the investment in prosecution resources while we 
diminish the investment in defender resources.
    I might just add, parenthetically, I had breakfast on 
Saturday morning with the Chairman of the Legal Services 
Corporation, John Levi. Two million indigent civil defendants 
appeared in court in the State of New York last year seeking an 
attorney, and there was no one. They went unrepresented.
    Now, I know it is a different standard with Gideon and the 
like, but it calls into question many things: first, our 
budgeting; and, second, I really believe it is a call to arms 
for the profession to step up in a lot of areas here, 
particularly in the legal services side, but even in our 
conversation.
    I would like to ask, if I can, Judge Gibbons, we have got a 
special challenge in Chicago. Violent crime is on the rise, and 
I have talked about some legislation to deal with gun tracing 
and things like that. I am concerned, as I review your 
testimony, that sequestration is forcing reductions in staff 
and resources in Federal pretrial services and also probation 
offices. Am I right to be concerned that these reductions may 
lead to potentially violent individuals walking the street of 
my city of Chicago without adequate supervision?
    Judge Gibbons. You are quite right to be concerned. You 
know, the term ``probation officer'' sounds kind of harmless, 
but these are law enforcement officers who have come to 
supervise increasingly dangerous criminal defendants over the 
years. There are various methodologies for assessing risk 
factors, and they continue to rise dramatically.
    Our officers in 2012 supervised 187,311 defendants. That is 
expected to rise to 191,000 by 2014. A number of them are 
extremely violent. We are already down by about seven percent 
of our staff in those offices.
    To the extent that we have to make further cuts, must make 
cuts in those areas, we have fewer officers to supervise 
increasingly larger numbers of people. Particularly of concern 
in that account is we have also had to cut 20 percent of what 
is called the law enforcement account, which funds drug 
treatment and testing, mental health treatment, and electronic 
monitoring, GPS location monitoring.
    So we have had to really seriously compromise some of our 
funds that go toward keeping the folks we supervise out of 
further trouble to the extent we can. We have had to completely 
zero out funds for what is called ``second-chance'' funding, 
which provides things like transitional housing, assistance 
with getting jobs. We just cannot do that anymore. Yes, this is 
a public safety risk throughout the country.
    Senator Durbin. I have just got to close by saying I went 
to Peoria, Illinois, which is a basic Midwestern mid-sized city 
where they are dealing with crime by calling in all of those on 
probation and parole for face-to-face meetings and to say, ``We 
know you are out there. And we are not only telling you we are 
watching you; We are also telling you here is a person who will 
help you get the training, education, and job you need, and 
here is her cell phone number.'' It really had a dramatic 
impact.
    We are going in the opposite direction here. We are putting 
fewer people in those capacities to try to find transition 
life, transition opportunities for people who really need an 
alternative in their lives at this moment.
    So I am troubled by what it means in terms of the crime 
rates in Illinois and around our Nation. And I thank you all 
for your testimony. And, Senator Coons, thank you for holding 
this hearing.
    Chairman Coons. Thank you very much, Senator Durbin, for 
bringing both your broad experience and your personal 
commitment to this issue and so many others facing us as we 
wrestle with the budget challenges and the justice challenges 
that face our country. How we solve our budget challenges has 
real implications for how we also continue to deliver on our 
fundamental commitment to justice.
    Mr. Nachmanoff, if I might, I just sort of wanted to ask in 
conclusion, there have been some comments made by Senators here 
today. They are just incredulous that it is factually possible 
that there can be defender offices facing in the coming year a 
reduction of staff by as much as a third. If I heard correctly, 
Judge Gibbons at the outset said that there is a roughly 1,000-
position reduction in the Defender Service nationwide, some 
through attrition, some through layoffs. And it seems that 
there might be a greater reduction going forward.
    And I have also either read about or heard today about 
senior defenders either taking early retirement or in one case, 
I believe, firing himself in order to avoid more significant 
cuts for junior staff who were really not in a position to take 
those cuts. And I believe you testified earlier to a reservist 
going to active duty.
    How does the loss of human capital, of institutional 
knowledge, of capability affect the ability of the Federal 
Defender Service to continue its representation? And how is it 
possible that you, amongst all the different functions that we 
are talking about here within the courts, could be facing a 
further cut of 23 percent? Just walk me through that, if you 
would.
    Mr. Nachmanoff. Sure. I think with regard to the 1,000-
person layoff, that was a reference to the court staff in 
general.
    Chairman Coons. Court staff broadly across all----
    Judge Gibbons. Including defenders.
    Chairman Coons. OK.
    Mr. Nachmanoff. But Federal Defenders are facing 
devastation in the coming year, and that is because if we 
continue with a continuing resolution and flat funding and we 
have the deferments of panel payments that are due next year, 
and depending on the decisions about the allocation of 
resources, Federal Defenders will be bearing the brunt of the 
shortfall. And because we have so many fixed costs, it is going 
to result in these massive layoffs. When you add in what I 
described regarding severance and lump-sum payments for annual 
leave and unemployment, it is even harder for Defenders to 
manage those budgets.
    So there is no question that the core value of the Federal 
Defender Program is imperiled in this year, and I appreciated 
that Senator Sessions mentioned that next year, 2014, will be 
difficult, and maybe things will get better. For Federal 
Defenders, it will be impossible to put the system back 
together again exactly for the reason that you have 
articulated. Senator Durbin referred to the great Terry 
MacCarthy, who is now Defender Emeritus; there are many people 
like him in the system who have years of experience, who are 
admired by the judges in their courts and by prosecutors and 
the court personnel for their integrity and their expertise. We 
have lost several Defenders--Steve Nolder in the Southern 
District of Ohio did terminate himself in order to preserve 
staff, and other Defenders have announced early retirement or 
that they will be leaving.
    I have no doubt that that will increase--and it is not just 
the Defenders, the leaders of the office. It is the rank-and-
file, the lawyers who go into court every day. It is the 
support staff, the investigators, the paralegals, those who 
allow us to do the job that meet our constitutional 
requirements. And if we lose, whether it is 25 percent or 35 
percent or 40 percent of our staff, with our program, which is 
very small, that will be a loss that is permanent. And so to 
rebuild will not involve simply calling them up and asking them 
to come back. We will have lost institutional knowledge and 
expertise that can never be recovered, and that would be a 
tremendous tragedy, not just for our clients but for the entire 
court system.
    Chairman Coons. Well, thank you. Thank you, Mr. Nachmanoff, 
thank you, Mr. Allen, and thank you, Your Honor, Judge Gibbons. 
I am grateful for your testimony here today. If I understand in 
summary what we have heard, it is that our current trajectory 
of how the sequester is being implemented in the Federal court 
system is doing real harm. It is delaying the timely and 
responsible resolution of civil cases. It is significantly 
reducing the staff available to both Article III and Article I 
judges and to the good operation of their courts. And, in 
particular, it is imposing an unreasonable and a lasting impact 
on the Federal Public Defender Service. It is penny-wise and 
pound-foolish because replacing seasoned senior public 
defenders with CJA Panel attorneys may, in fact, cost us more 
in the short term. And as you detailed, laying people off 
actually may cost more in the long term.
    So I leave this hearing today deeply concerned about how 
the sequester is impacting justice in the United States, 
grateful for the attendance of my colleagues, and hopeful that 
we can find some resolution, if not to the broader challenges 
of the budget and replacing sequester, something I really hope 
we will do, but in a more focused way to dealing with the 
specific issues of the judiciary and America's system of 
justice as you have raised it today.
    I would also like to thank the many interested stakeholders 
who have submitted testimony for the record, which I previously 
referenced, and it is my very real hope that Congress will take 
to heart the unique role of the judiciary and, within it, of 
the Federal Public Defenders in our system of Government.
    As we look to be careful stewards of taxpayer funds, we 
have to make sure we provide sufficient funding to enable the 
judiciary, a separate branch, to fulfill its important 
constitutional duty.
    With that, the record will remain open for a week for any 
Members who wish to submit additional testimony or questions on 
this topic, and I am hereby adjourning this hearing. Thank you.
    [Whereupon, at 4:46 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC] [TIFF OMITTED] 85452.001

    Prepared Statements of Witnesses and Committee and Subcommittee 
                                Chairmen

[GRAPHIC] [TIFF OMITTED] 85452.002

[GRAPHIC] [TIFF OMITTED] 85452.003

[GRAPHIC] [TIFF OMITTED] 85452.004

[GRAPHIC] [TIFF OMITTED] 85452.005

[GRAPHIC] [TIFF OMITTED] 85452.006

[GRAPHIC] [TIFF OMITTED] 85452.007

[GRAPHIC] [TIFF OMITTED] 85452.008

[GRAPHIC] [TIFF OMITTED] 85452.009

[GRAPHIC] [TIFF OMITTED] 85452.010

[GRAPHIC] [TIFF OMITTED] 85452.011

[GRAPHIC] [TIFF OMITTED] 85452.012

[GRAPHIC] [TIFF OMITTED] 85452.013

[GRAPHIC] [TIFF OMITTED] 85452.014

[GRAPHIC] [TIFF OMITTED] 85452.015

[GRAPHIC] [TIFF OMITTED] 85452.016

[GRAPHIC] [TIFF OMITTED] 85452.017

[GRAPHIC] [TIFF OMITTED] 85452.018

[GRAPHIC] [TIFF OMITTED] 85452.019

[GRAPHIC] [TIFF OMITTED] 85452.020

[GRAPHIC] [TIFF OMITTED] 85452.021

[GRAPHIC] [TIFF OMITTED] 85452.022

[GRAPHIC] [TIFF OMITTED] 85452.023

[GRAPHIC] [TIFF OMITTED] 85452.024

[GRAPHIC] [TIFF OMITTED] 85452.025

[GRAPHIC] [TIFF OMITTED] 85452.026

[GRAPHIC] [TIFF OMITTED] 85452.027

[GRAPHIC] [TIFF OMITTED] 85452.028

[GRAPHIC] [TIFF OMITTED] 85452.029

[GRAPHIC] [TIFF OMITTED] 85452.030

[GRAPHIC] [TIFF OMITTED] 85452.031

[GRAPHIC] [TIFF OMITTED] 85452.032

[GRAPHIC] [TIFF OMITTED] 85452.033

[GRAPHIC] [TIFF OMITTED] 85452.034

[GRAPHIC] [TIFF OMITTED] 85452.035

[GRAPHIC] [TIFF OMITTED] 85452.036

[GRAPHIC] [TIFF OMITTED] 85452.037

[GRAPHIC] [TIFF OMITTED] 85452.038

[GRAPHIC] [TIFF OMITTED] 85452.039

[GRAPHIC] [TIFF OMITTED] 85452.040

[GRAPHIC] [TIFF OMITTED] 85452.041

                         Questions and Answers

[GRAPHIC] [TIFF OMITTED] 85452.042

[GRAPHIC] [TIFF OMITTED] 85452.043

[GRAPHIC] [TIFF OMITTED] 85452.044

[GRAPHIC] [TIFF OMITTED] 85452.045

[GRAPHIC] [TIFF OMITTED] 85452.046

[GRAPHIC] [TIFF OMITTED] 85452.047

[GRAPHIC] [TIFF OMITTED] 85452.048

[GRAPHIC] [TIFF OMITTED] 85452.049

[GRAPHIC] [TIFF OMITTED] 85452.050

[GRAPHIC] [TIFF OMITTED] 85452.051

[GRAPHIC] [TIFF OMITTED] 85452.052

[GRAPHIC] [TIFF OMITTED] 85452.053

[GRAPHIC] [TIFF OMITTED] 85452.054

[GRAPHIC] [TIFF OMITTED] 85452.055

[GRAPHIC] [TIFF OMITTED] 85452.056

[GRAPHIC] [TIFF OMITTED] 85452.057

[GRAPHIC] [TIFF OMITTED] 85452.058

[GRAPHIC] [TIFF OMITTED] 85452.059

[GRAPHIC] [TIFF OMITTED] 85452.060

[GRAPHIC] [TIFF OMITTED] 85452.061

[GRAPHIC] [TIFF OMITTED] 85452.062

[GRAPHIC] [TIFF OMITTED] 85452.063

[GRAPHIC] [TIFF OMITTED] 85452.064

[GRAPHIC] [TIFF OMITTED] 85452.065

[GRAPHIC] [TIFF OMITTED] 85452.066

[GRAPHIC] [TIFF OMITTED] 85452.067

[GRAPHIC] [TIFF OMITTED] 85452.068

                Miscellaneous Submissions for the Record

[GRAPHIC] [TIFF OMITTED] 85452.069

[GRAPHIC] [TIFF OMITTED] 85452.070

[GRAPHIC] [TIFF OMITTED] 85452.071

[GRAPHIC] [TIFF OMITTED] 85452.072

[GRAPHIC] [TIFF OMITTED] 85452.073

[GRAPHIC] [TIFF OMITTED] 85452.074

[GRAPHIC] [TIFF OMITTED] 85452.075

[GRAPHIC] [TIFF OMITTED] 85452.076

[GRAPHIC] [TIFF OMITTED] 85452.077

[GRAPHIC] [TIFF OMITTED] 85452.078

[GRAPHIC] [TIFF OMITTED] 85452.079

[GRAPHIC] [TIFF OMITTED] 85452.080

[GRAPHIC] [TIFF OMITTED] 85452.081

[GRAPHIC] [TIFF OMITTED] 85452.082

[GRAPHIC] [TIFF OMITTED] 85452.083

[GRAPHIC] [TIFF OMITTED] 85452.084

[GRAPHIC] [TIFF OMITTED] 85452.085

[GRAPHIC] [TIFF OMITTED] 85452.086

[GRAPHIC] [TIFF OMITTED] 85452.087

[GRAPHIC] [TIFF OMITTED] 85452.088

[GRAPHIC] [TIFF OMITTED] 85452.089

[GRAPHIC] [TIFF OMITTED] 85452.090

[GRAPHIC] [TIFF OMITTED] 85452.091

[GRAPHIC] [TIFF OMITTED] 85452.092

[GRAPHIC] [TIFF OMITTED] 85452.093

[GRAPHIC] [TIFF OMITTED] 85452.094

[GRAPHIC] [TIFF OMITTED] 85452.095

[GRAPHIC] [TIFF OMITTED] 85452.096

[GRAPHIC] [TIFF OMITTED] 85452.097

[GRAPHIC] [TIFF OMITTED] 85452.098

[GRAPHIC] [TIFF OMITTED] 85452.099

[GRAPHIC] [TIFF OMITTED] 85452.100

[GRAPHIC] [TIFF OMITTED] 85452.101

[GRAPHIC] [TIFF OMITTED] 85452.102

[GRAPHIC] [TIFF OMITTED] 85452.103

[GRAPHIC] [TIFF OMITTED] 85452.104

[GRAPHIC] [TIFF OMITTED] 85452.105

[GRAPHIC] [TIFF OMITTED] 85452.106

[GRAPHIC] [TIFF OMITTED] 85452.107

[GRAPHIC] [TIFF OMITTED] 85452.108

[GRAPHIC] [TIFF OMITTED] 85452.109

[GRAPHIC] [TIFF OMITTED] 85452.110

[GRAPHIC] [TIFF OMITTED] 85452.111

[GRAPHIC] [TIFF OMITTED] 85452.112

[GRAPHIC] [TIFF OMITTED] 85452.113

[GRAPHIC] [TIFF OMITTED] 85452.114

[GRAPHIC] [TIFF OMITTED] 85452.115

[GRAPHIC] [TIFF OMITTED] 85452.116

[GRAPHIC] [TIFF OMITTED] 85452.117

[GRAPHIC] [TIFF OMITTED] 85452.118

[GRAPHIC] [TIFF OMITTED] 85452.119

[GRAPHIC] [TIFF OMITTED] 85452.120

[GRAPHIC] [TIFF OMITTED] 85452.121

[GRAPHIC] [TIFF OMITTED] 85452.122

[GRAPHIC] [TIFF OMITTED] 85452.123

[GRAPHIC] [TIFF OMITTED] 85452.124

[GRAPHIC] [TIFF OMITTED] 85452.125

[GRAPHIC] [TIFF OMITTED] 85452.126

[GRAPHIC] [TIFF OMITTED] 85452.127

[GRAPHIC] [TIFF OMITTED] 85452.128

[GRAPHIC] [TIFF OMITTED] 85452.129

[GRAPHIC] [TIFF OMITTED] 85452.130

[GRAPHIC] [TIFF OMITTED] 85452.131

[GRAPHIC] [TIFF OMITTED] 85452.132

[GRAPHIC] [TIFF OMITTED] 85452.133

[GRAPHIC] [TIFF OMITTED] 85452.134

[GRAPHIC] [TIFF OMITTED] 85452.135

[GRAPHIC] [TIFF OMITTED] 85452.136

[GRAPHIC] [TIFF OMITTED] 85452.137

[GRAPHIC] [TIFF OMITTED] 85452.138

[GRAPHIC] [TIFF OMITTED] 85452.139

[GRAPHIC] [TIFF OMITTED] 85452.140

[GRAPHIC] [TIFF OMITTED] 85452.141

[GRAPHIC] [TIFF OMITTED] 85452.142

[GRAPHIC] [TIFF OMITTED] 85452.143

[GRAPHIC] [TIFF OMITTED] 85452.144

[GRAPHIC] [TIFF OMITTED] 85452.145

[GRAPHIC] [TIFF OMITTED] 85452.146

[GRAPHIC] [TIFF OMITTED] 85452.147

[GRAPHIC] [TIFF OMITTED] 85452.148

[GRAPHIC] [TIFF OMITTED] 85452.149

[GRAPHIC] [TIFF OMITTED] 85452.150

[GRAPHIC] [TIFF OMITTED] 85452.151

[GRAPHIC] [TIFF OMITTED] 85452.152

[GRAPHIC] [TIFF OMITTED] 85452.153

[GRAPHIC] [TIFF OMITTED] 85452.154

[GRAPHIC] [TIFF OMITTED] 85452.155

[GRAPHIC] [TIFF OMITTED] 85452.156

[GRAPHIC] [TIFF OMITTED] 85452.157

[GRAPHIC] [TIFF OMITTED] 85452.158

[GRAPHIC] [TIFF OMITTED] 85452.159

[GRAPHIC] [TIFF OMITTED] 85452.160

[GRAPHIC] [TIFF OMITTED] 85452.161

[GRAPHIC] [TIFF OMITTED] 85452.162

[GRAPHIC] [TIFF OMITTED] 85452.163

[GRAPHIC] [TIFF OMITTED] 85452.164

[GRAPHIC] [TIFF OMITTED] 85452.165

[GRAPHIC] [TIFF OMITTED] 85452.166

[GRAPHIC] [TIFF OMITTED] 85452.167

[GRAPHIC] [TIFF OMITTED] 85452.168

[GRAPHIC] [TIFF OMITTED] 85452.169

[GRAPHIC] [TIFF OMITTED] 85452.170

[GRAPHIC] [TIFF OMITTED] 85452.171

[GRAPHIC] [TIFF OMITTED] 85452.172

[GRAPHIC] [TIFF OMITTED] 85452.173

[GRAPHIC] [TIFF OMITTED] 85452.174

[GRAPHIC] [TIFF OMITTED] 85452.175

[GRAPHIC] [TIFF OMITTED] 85452.176

[GRAPHIC] [TIFF OMITTED] 85452.177

[GRAPHIC] [TIFF OMITTED] 85452.178

[GRAPHIC] [TIFF OMITTED] 85452.179

[GRAPHIC] [TIFF OMITTED] 85452.180

[GRAPHIC] [TIFF OMITTED] 85452.181

[GRAPHIC] [TIFF OMITTED] 85452.182

[GRAPHIC] [TIFF OMITTED] 85452.183

[GRAPHIC] [TIFF OMITTED] 85452.184

[GRAPHIC] [TIFF OMITTED] 85452.185

[GRAPHIC] [TIFF OMITTED] 85452.186

[GRAPHIC] [TIFF OMITTED] 85452.187

[GRAPHIC] [TIFF OMITTED] 85452.188

[GRAPHIC] [TIFF OMITTED] 85452.189

[GRAPHIC] [TIFF OMITTED] 85452.190

[GRAPHIC] [TIFF OMITTED] 85452.191

[GRAPHIC] [TIFF OMITTED] 85452.192

[GRAPHIC] [TIFF OMITTED] 85452.193

[GRAPHIC] [TIFF OMITTED] 85452.194

[GRAPHIC] [TIFF OMITTED] 85452.195

[GRAPHIC] [TIFF OMITTED] 85452.196

[GRAPHIC] [TIFF OMITTED] 85452.197

[GRAPHIC] [TIFF OMITTED] 85452.198

[GRAPHIC] [TIFF OMITTED] 85452.199

[GRAPHIC] [TIFF OMITTED] 85452.200


                                   <all>





</pre></body></html>
